HQ-B-98-01



              AUDIT
             REPORT                           THE
                                  U.S. DEPARTMENT OF ENERGY’S
                                  VALUE ENGINEERING PROGRAM




                                              JULY 1998




     U.S. DEPARTMENT OF ENERGY
    OFFICE OF INSPECTOR GENERAL
      OFFICE OF AUDIT SERVICES
                                             DEPARTMENT OF ENERGY
                                                Washington, DC 20585

                                                       July 17, 1998



MEMORANDUM FOR THE DIRECTOR, OFFICE OF FIELD MANAGEMENT AND THE
  DEPUTY ASSISTANT SECRETARY FOR PROCUREMENT AND ASSISTANCE
  MANAGEMENT

FROM:          Phillip L. Holbrook
               Acting Deputy Inspector General for Audit Services

SUBJECT:    INFORMATION: Audit Report on "The U.S. Department of Energy's Value
     Engineering Program"

BACKGROUND

Value Engineering (VE) is defined as the organized analysis of the functions of a program, project, system
product, item or equipment, building, facility, service, or supply of an executive agency. This analysis
reduces these functions to their most basic elements and then looks for cost-efficient alternatives. VE
contributes to the overall management objectives of streamlining operations, improving performance,
reliability, quality, safety and reducing life-cycle costs. Further, it can result in the increased use of
environmentally-sound and energy-efficient practices and materials. VE benefits have been documented by
the General Accounting Office, which reported that VE usually produces a net savings of 3 to 5 percent of
project costs.

The Department of Energy (Department) used the VE methodology primarily in construction related
processes, including design reviews, and reported savings of $31.3 million for Fiscal Year 1996. The VE
program was primarily executed by the Department's management and operating and other prime
contractors. The objectives of this review were to assess the effectiveness of the Department's VE program
and test the validity of VE savings reported for FY 1996.

RESULTS OF AUDIT

The Department had not fully developed and implemented an effective VE program. Several major
Departmental sites had no formal VE programs or processes in place. Furthermore, some VE savings were
not always supported or not truly the result of the formal VE methodology and some field activities had not
consistently computed and reported VE savings. The Department's success with VE was limited by
inadequate policy and procedures and the lack of annual plans, goals and objectives. As a result, the
intended VE goals of reducing costs, increasing productivity, streamlining operations, and improving quality
may not have been achieved to the fullest extent possible.

Department officials were aware of deficiencies in the VE program and had taken a number of positive
actions to improve its program. However, additional improvements are needed to help ensure an effective
VE program within the Department.
MANAGEMENT REACTION

Management concurred with the finding and recommendations and agreed to take corrective action. The
Office of Field Management stated that teams of field, Headquarters and contractor personnel were
established and will develop an in-depth action plan by November 1, 1998, that is responsive to the OIG
recommendations. Management intends to implement as many of the actions as possible by November 1,
1998, or have an established schedule to complete the remaining actions.
The U.S. Department of Energy’s Value Engineering Program


TABLE OF
CONTENTS



                     Overview

                     Value Engineering......................................................................1


                     Value Engineering in the Department of Energy

                     Details of Finding.......................................................................3

                     Recommendations and Comments...........................................10


                     Appendices

                     Scope and Methodology..........................................................12

                     Prior Value Engineering Audits................................................13
Overview
                                               1
INTRODUCTION AND   Value Engineering (VE) is defined as the organized analysis of the
OBJECTIVE          functions of a program, project, system product, item or equipment,
                   building, facility, service, or supply of an executive agency. This
                   analysis reduces these functions to their most basic elements and then
                                                          2
                   looks for cost-efficient alternatives. VE contributes to the overall
                   management objectives of streamlining operations, improving
                   performance, reliability, quality, safety and reducing life-cycle costs.
                   Further, it can result in the increased use of environmentally-sound and
                   energy-efficient practices and materials. VE analysis should be
                   performed by a team of qualified and trained personnel.

                   VE originated in industry but the concept has also proven successful in
                   the Federal Government. According to the U.S. Army Corps of
                   Engineers (Corps), the methodology has been used on construction
                   projects since 1964 and the Corps has documented over $2.9 billion
                   dollars in savings and cost avoidance. The Corps has reported a $20
                   return for each $1 spent on the VE effort. VE benefits have also been
                   documented by the General Accounting Office, which reported that VE
                   usually produces a net savings of 3 to 5 percent of project costs.

                   Typically, a VE program consists of two components, the value
                   engineering proposal (VEP) and the value engineering change proposal
                   (VECP). The VEP is an in-house agency-developed proposal or a
                   proposal developed by a contractor under contract to provide VE
                   studies for a Government project or program. The VECP, in contrast,
                   is a proposal submitted by a contractor that, through a change in a
                   project's plans, designs, or specifications as defined in the contract,
                   would lower the project's life-cycle cost to the Government. Savings
                   identified by contractors are generally shared based on a predefined
                   arrangement.

                   Public Law 104-106 and Office of Management and Budget (OMB)
                   Circular A-131 require Federal agencies to use VE. OMB also requires
                   Inspectors General to evaluate how well the agencies have done. The
                   Department of Energy (Department) used the VE methodology
                   primarily in construction related processes, including design reviews,


                   1
                     Value Analysis, value management and value control are terms synonymous with
                     VE.
                   2
                     The VE methodology includes six phases: information gathering, creation of
                     alternatives, analysis of alternatives, development of alternatives, presentation,
                     and implementation.



Page 1                                                             Value Engineering Program
                  and reported savings of $31.3 million for Fiscal Year 1996. The VE
                  program was primarily executed by the Department’s management
                  and operating and other prime contractors. Each Departmental field
                  office had designated a VE representative who was responsible for
                  coordinating the VE efforts of its contractors. For the most part,
                  these representatives worked part time on VE efforts. The
                  objectives of this review were to assess the effectiveness of the
                  Department’s VE program and test the validity of VE savings
                  reported for FY 1996.

CONCLUSIONS AND   The Department had not fully developed and implemented an
OBSERVATIONS      effective VE program. Several major Departmental sites had no
                  formal VE programs or processes in place. Furthermore, some VE
                  savings were not supported or not the result of the formal VE
                  methodology and some field activities had not consistently
                  computed and reported VE savings. The Department's success with
                  VE was limited by inadequate policy and procedures and the lack of
                  annual plans, goals, and objectives. As a result, the intended VE
                  goals of reducing costs, increasing productivity, streamlining
                  operations, and improving quality may not have been achieved to
                  the fullest extent possible.

                  Department officials were aware of deficiencies in the VE program
                  and had taken a number of positive actions to improve its program.
                  In May 1997, the Department held a Value Management workshop
                  to discuss topics that posed challenges to effective VE. Workshop
                  participants, including both VE experts and subject matter experts,
                  identified a number of actions needed to overcome these challenges
                  and implement a viable program. One outcome of the workshop
                  was the issuance of a Departmental "Good Practice Guide" in
                  September 1997 which provides guidance on the Department's VE
                  process. Management advised that other positive actions have been
                  taken or planned which will improve the Department's future VE
                  efforts. However, additional improvements are needed to help
                  ensure an effective VE program within the Department.

                  The matters discussed in this report should be considered when
                  preparing the yearend assurance memorandum on internal controls.



                                                           /SIGNED/
                                                    Office of Inspector General


Page 2                                                    Value Engineering Program
Value Engineering in the Department of Energy

The Department Had Not      The Department had not fully developed and implemented an effective
Implemented an Effective    VE program. Departmental participation in the program was limited,
Value Engineering Program   some VE savings were not supported or the result of the VE
                            methodology, and field activities had not consistently computed and
                            reported VE savings.

                            Several Department sites did not formally participate in the VE
                            program or participated to only a limited degree. The Department's
                            FY 1996 VE report to OMB included VE activities reported by ten
                            major field locations. According to the VE reports submitted by these
                            field locations, one of the ten, the Rocky Flats Field Office, reported no
                            VE savings in FY 1996. A Rocky Flats official advised that there is
                            very little VE at that site. Another location, the Albuquerque
                            Operations Office, reported that one of its major components,
                            Los Alamos National Laboratory, had not reported VE savings and that
                            VE was only applied on high visibility projects.

                            Participation was also limited at several other major Department sites.
                            For example, at the Chicago, Nevada, and Richland Operations Offices,
                            VE was performed only informally without the specified structure
                            normally expected as part of a mature VE program. Based on our
                            review of VE documentation at the Chicago Operations Office and
                            subsequent interviews with responsible officials, we determined that:

                               • Brookhaven National Laboratory had no formal VE program
                                 and no system in place to track VE statistics;

                               • Argonne National Laboratory had no formal VE program; and,

                               • Fermi National Laboratory had an informal VE program that
                                 covered various projects and activities in the normal course of
                                 engineering design.

                            A responsible VE official from the Nevada Operations Office reported
                            during the May 1997 workshop that one study was conducted in FY
                            1996 but none since due to the lack of funds for studies. This VE
                            official believed that Nevada should do more studies and was trying to
                            obtain funding in FY 1998 in order to institute a more comprehensive
                            VE program.

                            At the May 1997 workshop Richland officials also advised that no
                            structured VE program existed at the site. A responsible Richland
                            official told us that the FY 1996 VE savings for that site were not the


Page 3                                                                        Details of Finding
         result of VE but instead were based on critical analysis reviews. The
         critical analysis reviews are part of the independent review process of
         projects and include assessing the need for the project and the
         validity of the projects scope and cost. However, management
         believed that the critical analysis review has some processes and
         practices in common with the VE methodology even though the
         analyses do not follow the complete VE technique.

         The Ohio Field Office and the Oak Ridge and Oakland Operations
         Offices also reported that their VE programs were limited. Idaho
         Operations Office officials believed they had an established VE
         program but VE could be used more.

         There also was little evidence that eligible contractors performing
         work for M&O contractors were participating in the VE program
         even though the contracts reviewed included a clause encouraging
         submission of VECPs. Based on our review of VE efforts reported
         by Kansas City and Chicago, only one such contractor had submitted
         a VECP. This proposal was submitted by a construction contractor
         under contract with the Kansas City Plant and resulted in savings of
         about $11,000. VE personnel from Idaho advised that only two
         VECPs had been processed during the time they worked at the site.
         Both Department and M&O contractor staff acknowledged that
         contractors were not participating in the VE program.


                                  Validity of Savings

         The Department did not accurately report VE savings for FY 1996.
         We reviewed $23.7 million of the $31.3 million for reported FY 1996
         savings and found that $9.1 million, or 38 percent of the amount
         reviewed, was unsupported as VE savings. The following table
         shows the VE proposals and cost savings reported to the Office of
         Management and Budget for Fiscal Year 1996.




Page 4                                                        Details of Finding
                             FY 1996 DOE Value Engineering Savings
                                       (In Thousands)



                               InHouse             Contractor               Total
                Office    Proposals   Savings Proposals Savings       Proposals   Savings


         Albuquerque              2    $      0       4   $10,746             6 $10,746
         Chicago                  7        3,913      1         140           8     4,053
         Idaho                    0           0     32      5,340            32     5,340
         Nevada                   2        1,624      9     1,680            11     3,304
         Oak Ridge                0           0     63          934          63       934
         Oakland                  0           0     90      2,112            90     2,112
         Ohio                     2           0       0          0            2         0
         Richland                 1           0       9     4,061            10     4,061
         Rocky Flats              0           0       0          0            0         0
         Savannah River           7         750       0           0           7       750
         Total                   21    $6,287      208    $25,013           229 $31,300

         The audit included testing of the amounts reported by the Albuquerque
         (Kansas City Plant); Chicago; Idaho; Richland and Savannah River
         Operations Offices. The Chicago and Richland Operations Offices'
         support did not appear to be the result of the VE methodology. In
         addition, the Chicago and Idaho Operations Offices had no support for
         some of their reported savings.

         The $31.3 million in reported VE savings included about $5.3 million
         of savings that did not appear to meet the criteria for a VE effort
         because these savings did not result from a study that had been
         identified as a VE effort nor was there sufficient documented evidence
         of the application of the elements of the VE discipline. Of the $5.3
         million:

             • about $1.2 million reported by Chicago resulted from refining
               cost estimates and project scopes when contract bids exceeded
               available funding; and,

             • the remaining $4.1 million reported by Richland resulted from
               critical analyses of projects to determine whether activities
               could be reduced in scope or eliminated.

Page 5                                                            Details of Finding
         Finally, we were unable to obtain adequate documentation to support
         approximately $3.8 million of the savings reported by Chicago and
         Idaho to determine the acceptability of the claimed savings as resulting
         from the VE process.

         In summary, $ 9.1 million may not qualify as VE savings. However,
         because the Department had not established criteria and guidance on
         what other cost reduction initiatives would be acceptable as VE as well
         as the lack of support documentation for some reported savings, we
         were unable to make a clear determination on this amount. Despite the
         fact that all reported savings may not qualify as VE savings, we view as
         positive all actions taken to prudently reduce the cost of Department
         operations.


                             Inconsistencies in Reported Data

         In addition to inconsistencies in what initiatives constituted VE, we also
         found disparities in how data was reported. For example, some sites
         reported VE savings that had not been realized while other sites only
         reported savings once realized. The Kansas City Plant reported $9.5
         million of VE savings based on two VE studies conducted in FY 1996.
         The savings were reported even though the activity had not decided
         which proposals, if any, would be accepted and implemented. In
         contrast, the Ohio Field Office advised that a VE study had previously
         been completed which identified potential savings of over $79 million.
         However, the activity did not report these potential savings because
         they had not been realized. It was evident that the policy was not
         consistent with regard to when savings were claimed.

         Inconsistencies also existed with regard to reporting proposal statistics.
         Some sites counted individual VE study reports as one proposal while
         others counted each recommendation contained in the study as a
         proposal. For example, Kansas City reported that three proposals were
         developed in FY 1996---two VE studies that supported its $9.5 million
         of savings and one VECP. In contrast, Idaho's reporting of 32
         proposals represented the 32 recommendations contained in six VE
         studies. Some Departmental personnel also were uncertain whether to
         report VE statistics as in-house effort or contractor effort. Consistency
         is needed among field offices to ensure accurate reporting of VE
         statistics to OMB.




Page 6                                                        Details of Finding
Agencies Are Required To    The Federal Acquisition Reform Act of 1996 (PL 104-106) requires
Implement Effective Value   that all executive agencies establish and maintain cost effective VE
Engineering Programs        procedures and processes in order to reduce program and acquisition
                            costs. OMB Circular A-131, dated May 21, 1993, placed certain
                            responsibilities on Departments and agencies. These include, among
                            other things, designating a senior manager to monitor and coordinate
                            agency VE efforts, developing criteria and guidelines for project
                            selection, and developing annual plans that identify projects, programs,
                            and systems to which VE techniques will be applied in the following
                            fiscal year.

                            Despite the codification of the VE requirement, the Departmental order
                            does not appear to require VE. DOE Order 430.1, "Life-Cycle Asset
                            Management," (LCAM), issued in August 1995, prior to PL 104-106,
                            requires the use of a "...process tool, such as Value Engineering, to
                            improve efficiency and cost effectiveness." However, DOE's "Good
                            Practice Guide" (GPG-FM-011), issued in September 1997 during the
                            audit, specifies that the Department considers VE a statutory
                            requirement.

DOE's Value Engineering     The Department's VE program was not fully effective because
Program Needed Better       responsible officials had not developed adequate policy and procedures,
Guidance and Procedures     and annual plans as required by A-131, or established goals and
                            objectives for the program. This lack of policy and guidance led to
                            uncertainty among field office staff as to program requirements, the
                            nature of the VE process and how to apply it properly in the DOE
                            model, and how best to report VE results.

                            The matter of insufficient Departmental direction and the resulting
                            uncertainty was discussed in great detail at the Department's May 1997
                            Value Management conference. For example VE representatives were
                            concerned that there was no policy relative to VE. Others expressed
                            concern that the LCAM, which addressed VE, was not definitive and
                            muddied the issue on the requirement to use VE. Some even believed
                            that based on LCAM, VE application was not required.

                            Another reason the Department may not have had an optimum VE
                            program was that most M&O contracts did not directly require VE or
                            contain the VE clauses specified in the Federal Acquisition Regulation.
                            From a sample of nine M&O contracts, we found that the VE clause
                            had been included in only one. When we inquired why VE application
                            was not a requirement under all M&O contracts, Procurement officials
                            advised that there was limited opportunity for VE in the Department


Page 7                                                                          Details of Finding
         and therefore, the requirement had not been included as a contract
         clause. Other DOE officials expressed the view that VE application
         was appropriate and that specifically including the requirement in each
         contract would ensure optimum program participation. These
         differences of opinion indicate an uncertainty in the Department as to
         the application of VE principles to DOE’s operations.

         Departmental site and project personnel responsible for VE
         implementation also cited that the lack of guidance which clearly
         defined and differentiated VE from other cost-saving initiatives and
         clearly explained how to compute and report savings led to inaccurate
         and inconsistently reported VE savings. Managers were unsure
         whether only realized cost savings should be reported or whether
         expected savings should be reported. In the absence of guidance, DOE
         managers appear to have instituted their own determination in data
         accumulation.

         To ensure full participation in the VE program and accurate and
         consistent reporting of VE data, certain actions need to be taken. First,
         the Department needs to clarify the requirement for VE in LCAM, and
         should consider including the VE requirement as a specific clause in the
         M&O contracts. Further the Department needs to establish guidance
         on computing methodologies and reporting practices. In particular it
         needs to determine, for reporting purposes, whether the VE approach
         will be strictly adhered to or whether other cost savings activities such
         as those reported by Chicago to bring costs in line with budgets and
         critical analysis reported by Richland are acceptable VE efforts whose
         savings are acceptable VE savings. Guidance is also needed concerning
         the maintenance of sufficient documentation to support such data.

         In addition to the lack of policy regarding the program, the Department
         had not prepared annual plans, or established goals and objectives to
         measure program success. Corps officials believed that one of the
         primary reasons for the success of its VE Program was that it
         established study and dollar-savings goals each year to measure
         success. For example, the Corps VE goal was to save 6 percent of the
         agency's construction costs. Other Department of Defense (DOD)
         components had established a VE savings goals of 1 percent of the total
         obligation authority. Corps personnel told us that they customarily
         achieve their goals. The development of annual plans and similar goals
         and objectives would encourage use of VE analysis and provide data
         needed to measure the success of the program. Further such data will
         enable the Department to meet the requirements of the Government


Page 8                                                       Details of Finding
                        Performance and Results Act of 1993 which requires Federal agencies
                        to establish long-term strategic goals, measure performance against
                        those goals, and report publicly on how well they are doing. We noted
                        that the Good Practice Guide includes several model performance
                        measures for VE.

                        Other observations made during the review that impacted the
                        Department's program were the lack of training in the VE methodology
                        (field/worker level; program level; and procurement/contracting
                        community); lack of direction on how to fund VE efforts; inadequate
                        personnel devoted to the program; and insufficient management
                        support for the program.

Economic Benefits May   Based on historical trends and comparisons with other agency
Not Be Achieved         practices, there is great potential for savings through the application of
                        the VE methodology to construction projects. Further, industry
                        standards literature has shown that there is great potential for savings
                        from the application of VE to environmental projects. However,
                        because the Department's participation in the program was limited, few
                        VE analysis were performed and only $31.3 million of potential savings
                        was reported in FY 1996. These potential savings, which represented
                        about two-tenths of one percent of the Department's FY 1996
                        appropriation, are minimal based on benchmarks established by DOD,
                        the Corps and the General Accounting Office. Thus the Department
                        may not have realized the full benefits of the VE methodology which
                        include reducing acquisition and program costs, increasing productivity,
                        streamlining operations, and improving quality.




Page 9                                                                       Details of Finding
RECOMMENDATIONS   1. We recommend that the Director, Office of Field Management work
                     to improve the Department's VE program by:

                     a. Clarifying the requirement for VE application in LCAM 430.1
                        and other Departmental guidance.

                      b. Ensuring that recently developed Departmental guidance on VE
                         application adequately addresses:

                         • procedures on processing proposals;

                         • guidance on those cost saving initiatives that will be
                           acceptable as VE efforts;

                         • methodologies for computing and reporting savings; and,

                         • documentation required to support such savings.

                     c. Establishing annual and long-term goals and objectives and
                        performance measures for the DOE VE program.

                     d. Developing, in conjunction with program offices, a strategy/
                        annual plan which includes those programs and projects which
                        may better benefit from the application of VE techniques.
                        Application of VE should be expanded beyond construction
                        projects in order to realize the full benefit of the VE
                        methodology.

                     e. Developing VE competencies and training requirements and
                        ensuring that agency staff involved with VE application are
                        adequately trained.

                    f. Working with the Office of the Deputy Secretary to ensure
                       sufficient guidance to implement a VE program is provided to
                       the program offices consistent with OMB Circular A-131. The
                       approach for funding the VE program shall be included in this
                       guidance.

                  2. We recommend that the Deputy Assistant Secretary for
                     Procurement and Assistance Management work with the Office of
                     Field Management to identify procurement policy changes
                     necessary to implement the Department's VE program.



Page 10                                           Recommendations and Comments
MANAGEMENT REACTION   Management concurred with the finding and recommendations and
                      agreed to take corrective actions. The Office of Field Management
                      stated that teams of field, Headquarters and contractor personnel had
                      been established and will develop by November 1, 1998, an in-depth
                      action plan responsive to the OIG recommendations. Management
                      intends to implement as many of the actions as possible by November 1,
                      1998, or have an established schedule to complete the remaining
                      actions.


AUDITOR COMMENTS      Management's comments are responsive to the audit report
                      recommendations.




Page 11                                               Recommendations and Comments
APPENDIX A

SCOPE         The audit was performed from June 1997 to December 1997, at the
              Department's Headquarters in Washington, DC. Audit work was also
              conducted at the Albuquerque, Chicago, Idaho, Richland and Savannah
              River Operations Offices. We made site visits to the Albuquerque
              Operations Office (Kansas City Plant) and the Chicago Operations
              Office. These sites reported 43.1 percent of the $ 31.3 million of Fiscal
              Year (FY) 1996 VE savings. Idaho, Richland and Savannah River,
              which reported 32.6 percent of FY 1996 VE savings provided
              documentation to support their savings and other information as
              requested concerning their programs. In addition, we contacted other
              DOE offices' VE representatives to obtain information about the
              operation of their VE programs.


METHODOLOGY   To accomplish the audit objectives, we:

                 • reviewed applicable laws and/or regulations for performance
                   and compliance criteria;

                 • interviewed Departmental VE staff at Headquarters and field
                   office and contractor locations;

                 • analyzed documentation in support of reported Value
                   Engineering savings; and,

                 • interviewed Value Engineering officials at other Federal
                   agencies.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits, and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objectives. Because our review
              was limited, it would not necessarily have identified all internal control
              deficiencies that may have existed. We did not conduct a reliability
              assessment of computer-processed data because only a limited amount
              of computer-process data was used during the audit.




Page 12                                                    Scope and Methodology
APPENDIX B

PRIOR REPORTS   The Department's Value Engineering program had not been previously
                audited. However, the OIG initiated an audit during Fiscal Year 1996,
                but was unable to conduct the review because the Department had not
                prepared its FY 1995 report of VE savings. This is addressed in report
                AS-L-96-01, Audit of DOE's Implementation of Office of Management
                and Budget Circular A-131, Value Engineering. While DOE was not
                included in the President's Council on Integrity and Efficiency's August
                1991 audit of VE in the Federal Government, the Council concluded
                that more could and should be done by Federal agencies to realize the
                benefits of VE.




Page 13                                                                  Prior Reports
                                                                                  IG Report No. HQ-B-98-01

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to en-
hance the effectiveness of future reports. Please include answers to the following questions if they are appli-
cable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the au-
   dit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________             Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                         ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                       following alternative address:


                Department of Energy Human Resources and Administration Home Page
                                     http://www.hr.doe.gov/ig

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.

                                   This report can be obtained from the
                                       U.S. Department of Energy
                              Office of Scientific and Technical Information
                                               P.O. Box 62
                                      Oak Ridge, Tennessee 37831
